1a
APPENDIX A
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
No. PD-0561-20
JACOB MATTHEW JOHNSON, Appellant
v.
THE STATE OF TEXAS
ON STATE’S PETITION
FOR DISCRETIONARY REVIEW FROM THE
FOURTEENTH COURT OF APPEALS
BRAZORIA COUNTY
KELLER, P.J., delivered the opinion of
the Court in which HERVEY, YEARY,
NEWELL, KEEL, AND SLAUGHTER, JJ.,
joined. WALKER, J., filed a dissenting opinion.
RICHARDSON, J., concurred. MCCLURE, J.,
dissented.
An officer activated his emergency lights and
approached a parked vehicle at a “park and ride”
lot. We conclude that the officer had reasonable
suspicion to conduct an investigative detention
because the parking lot had a significant
association with criminal activity and because the
occupants of the vehicle engaged in activity that
appeared secretive and was unusual for the time
and place. Consequently, we reverse the judgment
of the court of appeals and affirm the judgment of
the trial court.

2a
I. BACKGROUND
A. Suppression Hearing
The only witness at the suppression hearing
was Sergeant Robert Cox, from the patrol division of
the Brazoria County Sheriff’s Office. He testified
about events occurring on August 28, 2016, at a
park-and-ride parking lot.
The main use of the park-and-ride was
“during the daytime for people that go into plant
traffic and park,” but it was open twenty-four hours.
The park-and-ride was close to a bar, and because
the bar’s own parking lot was small, patrons often
parked at the park-and-ride and walked over.
Sergeant Cox knew that the park-and-ride was a
place where “a variety of criminal activity” took
place, including burglaries of motor vehicles, public
lewdness, and illicit drugs. In his ten years of
patrolling the area, Sergeant Cox could not say how
many times he had been at the park-and-ride on
calls, but it had been “a lot.” In the months around
August 28, he personally had been at the park- andride on calls “maybe three or four” times. When he
was not on a call, but was simply patrolling the
park-and-ride, the sergeant’s general practice was
to drive around the lot and shine a spotlight on the
vehicles.
Shortly after midnight, Sergeant Cox saw a
vehicle parked by itself away from where other
vehicles were parked. This solitary vehicle’s
headlights and other outside lights were off, and
there were no lights on inside the vehicle. When he
shined his spotlight on the vehicle, Sergeant Cox

3a
could tell that there were two occupants and that
there was movement inside the vehicle. In Sergeant
Cox’s experience, it was out of the ordinary for
someone to be inside a vehicle at the park-and-ride
after midnight “[w]ith no other vehicle there to pick
them up and give them a ride.”
The sergeant pulled to a stop 10 to 15 yards
behind the vehicle and activated his overhead
emergency lights.1 He activated those lights to start
the recording equipment and also to let the
occupants of the vehicle know he was a police officer
“and so nobody shoots [him].” He approached the
vehicle on foot, made contact on the driver’s side
using caution, and identified himself. At some point,
the driver’s side window was rolled down, and once
that occurred, Sergeant Cox smelled marijuana. At
that point, the sergeant also noticed that Appellant
was wearing baggy shorts and that his shorts were
unbuttoned and unzipped.
During the hearing, defense counsel asked
the sergeant, “And you had—you know, so if you
turned on your overhead lights, it would be like a
normal police car pulling somebody over if you got a
traffic ticket. Right? I mean, that’s what your
vehicle looked like?" Sergeant Cox responded, “Yes,
sir.”
The State sought to offer a copy of the video
recording captured by the patrol car. Defense
counsel objected that the video recording was
irrelevant because the events it depicted occurred
In response to a question suggesting that his
vehicle was “not fully blocking in the view,” the sergeant
indicated that it was not.
1

4a
after the defendant was seized. The defense theory
was that a seizure of Appellant occurred once the
overhead emergency lights were activated and that
the sergeant did not have reasonable suspicion to
initiate that seizure. Since the recording captured
only events that occurred after the overhead
emergency lights were activated, the defense
reasoned, the events on the recording the events on
the recording would necessarily be post-seizure.2
The trial court sustained the defense objection. It
agreed with the defense “somewhat” and concluded
that the issue before it was whether the officer had
reasonable suspicion.
B. Trial Court’s Findings
The trial court made the following written
findings of fact that seem relevant to the inquiry
before us:
2. Sergeant Robert Cox testified that he
was on routine patrol around 12 AM.
3. Sergeant Cox further testified that as
part of his routine patrol, he regularly
checks the park and ride located at the
intersection of FM 2004 and FM 523.
He regularly spotlights vehicles
The State suggested that the recording might
include some footage immediately preceding the
activation of the overhead lights. The defense indicated a
willingness to allow any such portion of the video to be
played but maintained that the bulk of the video,
occurring after the overhead emergency lights were
activated, should be excluded.
2

5a
parked overnight in that park and ride
to deter drug activity and burglaries.
4. The park and ride at the intersection
of FM2004 and FM 523 is a high crime
area for burglaries of motor vehicles,
drug crimes, and public lewdness.
Sergeant Cox testified that he had
personally made several arrests in the
months prior to this offense for such
offenses in that park and ride.
5. While conducting his routine patrol on
or about the day in question, Sergeant
Cox spotted the defendant’s vehicle
parked in the park and ride and
observed movement inside. Other
vehicles were present in the park and
ride and that [sic] defendant’s vehicle
was parked away from the other
vehicles.
6. Sergeant
Cox
parked
behind
defendant’s vehicle then turned on his
overhead lights.
7. Sergeant Cox did not block the
defendant’s vehicle from leaving when
he parked behind it.
8. Sergeant
Cox
then
defendant’s vehicle.

approached

6a
9. Once the defendant rolled down his
window, Sergeant Cox observed the
defendant’s pants to be undone and
detected the smell of marihuana.
The trial court issued the following conclusions of
law:
1. Officers do not need reasonable suspicion to
initiate a consensual encounter with a
citizen. Sergeant Cox’s initial encounter
with the defendant was a proper consensual
encounter that later evolved into an
investigative detention.
2. The sole fact that Sergeant Cox activat[ed]
his overhead lights alone did not elevate
the
consensual
encounter
into
an
investigative detention.
3. If the initial encounter was a detention, it
was properly supported by reasonable
suspicion of criminal activity as necessary
to detain the defendant based on specific,
articulable facts, namely: his presence in
the park and ride, a high crime area, after
the park and ride’s normal operating
hours.3

3

Records references and citations omitted.

7a
C. Appeal
The court of appeals concluded that a seizure
had occurred before Appellant rolled down his car
window.4 That court observed that “fact patterns
involving a police officer’s use of a patrol car’s
overhead emergency lights are frequently held
sufficient to constitute an investigative detention of
a citizen, whether in a parked car or a moving car.”5
But, the court of appeals said, “[C]ourts must
consider the circumstances” and ultimately “context
matters.”6 The court noted that a police car might
pull to the side of the road at night and activate
emergency lights for safety purposes.7 After
reviewing the circumstances of Appellant’s case in
the light most favorable to the trial court’s ruling,
the court of appeals concluded that the evidence
demonstrated that Officer Cox “through a show of
authority, sufficiently conveyed the message that
appellant was not free to leave the Parking Lot or to
ignore a request to lower the car window.”8
The court of appeals further concluded that
Sergeant Cox lacked reasonable suspicion to initiate
the seizure.9 The appellate court first took issue
with the trial court’s conclusion that the park-andride was a high crime area.10 The court of appeals
Johnson v. State, 602 S.W.3d 50, 58 (Tex. App.—
Houston [14th Dist.] 2020).
5
Id.
6
Id.
7
Id.
8
Id.
9
Id. at 61.
10
Id. at 59-60.
4

8a
noted that the Sergeant testified to responding to
three or four calls during a time period and that he
also testified that burglaries of motor vehicles, drug
crimes, and public lewdness occurred at the parkand-ride, but the court of appeals stated that the
sergeant did not say that the calls were for those
crimes or that the calls resulted in any arrests.11
The appellate court also stated that Sergeant Cox
did not testify that the park-and-ride was a high
crime area.12 The court of appeals concluded that
the record does not support the trial court’s finding
that the park-and-ride “is a high crime area for
burglaries of motor vehicles, drug crimes, and public
lewdness and that Officer Cox testified he had made
several arrests for these types of offenses in the
months
prior
to
the
charged
offense.”13
Consequently, the court of appeals disregarded
these findings.14
Next, the court of appeals noted that the time
of day and level of criminal activity in the area are
relevant to reasonable suspicion but that “courts
generally require something else particular to the
suspect’s behavior to justify a suspicion of criminal
activity.”15 The appellate court pointed to one of its
earlier cases, in which reasonable suspicion was
lacking, when the following factors were present:

11
12
13
14
15

Id.
Id. at 60.
Id.
Id.
Id. at 61.

9a
(1) it was 2:30 a.m.; (2) while driving
on a highway, the officer saw a truck
parked behind a shopping center; (3)
the businesses in the shopping center
were closed; (4) there had been
burglaries at the shopping center in
the past, though the police officer did
not say how recent or how many; (5)
the officer turned into the parking lot
shortly afterwards and discovered
that the truck was gone; (6) the officer
then turned onto an adjoining road
and within fifteen to twenty seconds
came upon a truck that he believed to
be the same as the one at the
shopping center; and (7) the officer
wanted to identify the truck.16
After analyzing the earlier case, the court of appeals
concluded that, even in the light most favorable to
the trial court’s ruling, the record in this case did
not
reasonably
support
the
trial
court’s
determination that Sergeant Cox had the requisite
reasonable suspicion.17 Ultimately, the court of
appeals reversed the trial court’s judgment and
remanded the case for further proceedings.18
The concurring opinion would have held that
“flashing overhead emergency lights is synonymous
with an instruction to stop and not leave.”19 The
Id. at 60-61 (discussing Klare v. State, 76 S.W.3d
68, 71 (Tex. App.—Houston [14th Dist.] 2002, pet. ref'd)).
17
Id. at 61.
18
Id. at 62.
19
Id. at 69 (Hassan, J., concurring).
16

10a
concurrence would also have found that the time of
day was not suspicious because the park-and-ride
was open twenty-four hours a day.20
II. ANALYSIS
The State argues that Sergeant Cox did not
initiate a seizure when he activated his emergency
lights. The State also contends that Sergeant Cox
had reasonable suspicion to conduct an investigative
detention. Assuming, without deciding, that a
seizure did occur,21 we agree with the State that
Sergeant Cox had reasonable suspicion.
Under the Fourth Amendment, a police
officer may conduct an investigative detention if the
“reasonable suspicion” standard is satisfied.22
“Reasonable suspicion” means “a particularized and
objective basis for suspecting the particular person
stopped of criminal activity.”23 Stated another way,
“Reasonable suspicion exists if the officer has
specific articulable facts that, when combined with
rational inferences from those facts, would lead him
to reasonably suspect that a particular person has
engaged or is (or soon will be) engaged in criminal
Id. at 65-66. The concurrence made other
arguments that appear to be consistent with the majority
opinion that we need not detail here. See id. at 67-69.
21
See Garcia-Cantu v. State, 253 S.W.3d 236, 245
n.43 (Tex. Crim. App. 2008) (use of police emergency
lights “frequently held sufficient to constitute a detention
or seizure of a citizen, either in a parked or moving car”)
(citing cases from other jurisdictions).
22
Kansas v. Glover, 140 S. Ct. 1183, 1187-88 (2020).
23
Id. at 1187.
20

11a
activity.”24 A mere “hunch” is not sufficient, but the
level of suspicion required is less than what is
necessary for probable cause and “can be
established with information that is different in
quantity or content than that required to establish
probable cause.”25 The articulable facts need only
show “that some activity out of the ordinary has
occurred, some suggestion to connect the detainee to
the unusual activity, and some indication that the
unusual activity is related to crime.”26 The officer
need not be able to “pinpoint a particular penal
infraction.”27 And reasonable suspicion “does not
require negating the possibility of innocent
conduct.”28
The
“reasonable
suspicion”
standard
“depends on the factual and practical considerations
of everyday life on which reasonable and prudent
men, not legal technicians, act.”29 In formulating
reasonable suspicion, a police officer can draw on
his own experience and specialized training.30 We
review a determination of reasonable suspicion by
looking at the totality of the circumstances.31
Sometimes, a police officer’s limited knowledge of
State v. Cortez, 543 S.W.3d 198, 204 (Tex. Crim.
App. 2018).
25
Glover, 140 S. Ct. at 1187-88.
26
Derichsweiler v. State, 348 S.W.3d 906, 916 (Tex.
Crim. App. 2011).
27
Id.
28
Ramirez-Tamayo v. State, 537 S.W.3d 29, 39 (Tex.
Crim. App. 2017).
29
Glover, 140 S. Ct. at 1188 (emphasis removed).
30
Ramirez-Tamayo, 537 S.W.3d at 36.
31
Cortez, 543 S.W.3d at 204.
24

12a
the circumstances can give rise to reasonable
suspicion, even though “the presence of additional
facts might dispel reasonable suspicion.”32
Some of the trial court’s fact findings33
relevant to reasonable suspicion slightly overstate
what is actually in the record. The statement in
Finding 3 that Sergeant Cox “regularly spotlights
vehicles parked overnight” in the park-and-ride is
based on testimony that Sergeant Cox regularly
spotlights any vehicles parked there at night. That
some vehicles are likely parked “overnight” appears
to be a rational inference from the record, but
nothing in the testimony suggested that Sergeant
Cox would know which vehicles would ultimately be
parked overnight. Finding 4 mentions motor-vehicle
burglaries, drug crimes, and public lewdness and
says that “Sergeant Cox testified that he had
personally made several arrests in the months prior
to this offense for such offenses in that park and
ride,” but as the court of appeals pointed out,
Sergeant Cox did not explicitly testify that his calls
to the park-and-ride were for those crimes or that he
made arrests during those calls. The trial court
would have been on firmer ground to infer from
Sergeant Cox’s testimony that the calls were for
those crimes and resulted in arrests, and then the
question would be whether such inferences were
reasonable. And in Conclusion 3, the trial court
referred to Appellant’s vehicle being present “after
the park and ride’s normal operating hours,” when
Glover, 140 S. Ct. at 1191.
By “factual findings,” we refer in this case both to
the explicit findings of fact and to statements in the
conclusions of law that amount to a fact finding.
32
33

13a
in fact the park-and-ride was open twenty-four
hours. Sergeant Cox did testify, however, that the
main use of the lot was during the daytime and that
it was out of the ordinary for somebody to be parked
in their car after midnight in that park-and-ride
with no one there to pick them up.
Despite some imprecision, we can say two
general things about the findings and conclusions
that support the trial court’s ruling. First, although
the trial court did not make an express assessment
of Sergeant Cox’s credibility, all of the findings
accept his credibility on various points and, taken
together, indicate that the trial court accepted his
credibility in all respects. Second, even where the
findings and conclusions are not strictly correct,
they can be traced back to facts established by
Sergeant Cox’s testimony that are relevant to—
though perhaps not as strongly supportive of—
reasonable suspicion. In the previous paragraph, we
outlined three such situations.
Sergeant Cox was aware of at least seven
facts relevant to reasonable suspicion before he
turned on his overhead emergency lights. Those
facts, along with the trial-court findings to which
each fact relates, are as follows:
1. The park-and-ride was a place that
had a significant association with
criminal activity. Finding 3 (“to
deter
drug
activity
and
burglaries”), Finding 4 (in its
entirety), and Conclusion 3 (“high
crime area”).

14a
2. In Sergeant Cox’s experience, it
was unusual for a person to be
inside his vehicle while it was
parked at the park-and-ride after
midnight without another vehicle
there to give him a ride. Finding 3
(“vehicles parked overnight in that
park and ride”). Conclusion 3 (“his
presence in the park and ride . . .
after the park-and-ride’s normal
operating hours”).
3. At least one person was inside
Appellant’s vehicle while it was
parked at the park- and-ride after
midnight. Finding 2 (“on routine
patrol around 12 AM”), Finding 5
(“While conducting his routine
patrol . . . spotted the defendant’s
vehicle parked in the park and ride
and observed movement inside”),
Conclusion 3 (“his presence in the
park and ride . . . after the parkand-ride’s
normal
operating
hours”).
4. At least one person in the vehicle
was awake because there was
movement in the vehicle. Finding 5
(“observed
movement
inside”),
Conclusion 3 (“his presence in the
park and ride . . . after the parkand-ride’s normal operating hours).

15a
5. The vehicle’s lights were off.
Conclusion 3 (“his presence in the
park and ride . . . after the parkand-ride’s normal operating hours).
6. There were no other lights on
inside the vehicle. Conclusion 3
(“his presence in the park and ride .
. . after the park-and-ride’s normal
operating hours).
7. The vehicle was parked away from
the other vehicles in the park-andride. Finding 5 (“Other vehicles
were present in the park and ride
and that defendant’s vehicle was
parked away from the other
vehicles.”).
Regarding the first fact, we need not decide
whether the record supports the trial court’s finding
that the park-and-ride was a “high crime area.” The
court of appeals’s point that Sergeant Cox did not
testify explicitly that the park-and-ride was a “high
crime area” is true but does not necessarily
undermine the trial court’s finding. The trial court’s
finding that the park-and-ride was a “high crime
area” was an inference based on the testimony.
Nevertheless, it is enough for our purposes to hold
that the testimony at least supports an inference
that the park-and-ride had a significant association
with criminal activity. The place had been the site of
at least three different types of criminal activity,
with each type having been committed multiple

16a
times. Sergeant Cox had responded to calls to the
park-and-ride “a lot” of times, and in the months
around the date of this offense, he had personally
answered three or four calls to it.
The second fact was explicitly testified to by
Sergeant Cox. The trial court somewhat overstated
the evidence in Conclusion 3 when it said that
Appellant’s vehicle was parked after normal
operating hours; the park-and-ride was open
twenty-four hours, so all hours were “normal
operating hours.” But Sergeant Cox did testify that
someone’s presence at the park-and-ride could be
abnormal under certain circumstances given the
lateness of the hour: that sitting in a parked car at
the park-and-ride after midnight without another
car present to give the person a ride was out of the
ordinary. The trial court’s reference to “vehicles
parked overnight” in Finding 3 was consistent with
Sergeant Cox’s testimony that, once the hour
became late enough, people were leaving their cars
in the park-and-ride and obtaining rides home. In
fact, if it were not for the presence of the nearby
bar, there would normally be no reason for anyone
to sit in their cars after midnight at the park-andride. The ostensible purpose of a park-and-ride lot is
to provide a place to park while one uses public
transportation. No testimony was elicited about
whether buses were still running at midnight, but
Sergeant Cox did testify that, even though people
from the nearby bar would park at the park-andride, its main use was during the daytime for plant
workers.
The third fact was explicitly testified to by
Sergeant Cox and can be derived from considering

17a
several of the trial court’s findings together. The
trial court’s Finding 2 said the sergeant was on
patrol around 12 a.m., and Finding 5 said the
sergeant spotted Appellant’s vehicle and the
movement inside while on patrol. And Conclusion
3’s reference to Appellant’s presence “after normal
operating hours” was an implicit reference to the
lateness of the hour.
The fourth fact, that someone in the vehicle
was awake, is a rational inference from seeing
movement inside the vehicle. Sergeant Cox testified
to seeing movement inside the vehicle, and the trial
court explicitly found that Sergeant Cox saw such
movement.
Finally, the seventh fact was testified to by
Sergeant Cox and explicitly found by the trial court.
Viewed together, here is what we have:
Sergeant Cox knew that the park-and-ride had a
significant association with criminal activity. He also
knew that, after midnight, people did usually not
loiter inside their vehicles: they either got in their
vehicles and drove away immediately, or they
arranged for a ride home in someone else’s vehicle.
Sergeant Cox also knew that Appellant’s vehicle was
occupied after midnight, that the vehicle was not
driving away (the lights were off), and that there was
not a “ride-home” vehicle next to Appellant’s vehicle.
Sergeant Cox could also surmise that the occupant
was not waiting for another vehicle because there
was no light on inside the vehicle. One might expect
to see some sort of light in the occupied vehicle, such
as from a cell-phone calling the ride or monitoring its
progress, a CD player playing a song while the
person waits, an internal light on to read a book, or

18a
the light of a smart phone occupying one’s time. The
interior of a car could be dark if the occupant was
asleep but because Sergeant Cox had seen
movement, he knew at least one occupant of the car
was awake. And Appellant’s vehicle being in a spot
away from the other vehicles might not mean much
by itself. But when combined with the occupant’s outof-the ordinary presence at the park-and-ride after
midnight, the relative seclusion of the vehicle
suggested that the occupant or occupants were
engaged in behavior that needed to be hidden from
others. And the inference that behavior was being
hidden was reinforced by the absence of lighting in
the vehicle.
The unusual and secretive behavior of the
occupants of Appellant’s vehicle at least gave rise to
an objectively reasonable suspicion that some sort of
crime was being committed or contemplated. Drug
crimes had occurred with at least some frequency at
the park-and-ride, and a dark, isolated vehicle
would easily facilitate such crimes. Or such a
vehicle could be a waiting spot for the commission of
some other crime, such as burglarizing someone
else’s vehicle or burglarizing a business, such as the
nearby bar. Or there might be some other unknown
crime that the occupant of such a vehicle intends to
commit. As we have explained, an officer does not
have to pinpoint an exact penal offense. Here, the
unusual and secretive nature of Appellant’s
behavior was sufficient to give rise to a reasonable
suspicion “that something of an apparently criminal
nature is brewing.”34
See Derichsweiler, 348 S.W.3d at 917 (emphasis in
original).

34

19a
There might be an innocent explanation for
someone sitting in his car in the dark at the parkand-ride after midnight in a relatively isolated
parking spot. And assuming multiple occupants
(two, according to Sergeant Cox’s testimony), they
could be talking or passing the time in some other
manner that does not require light. But as we have
already explained, reasonable suspicion does not
require negating the possibility of an innocent
explanation. “It matters not that all of this conduct
could be construed as innocent of itself; for purposes
of a reasonable-suspicion analysis, it is enough that
the totality of the circumstances, viewed objectively
and in the aggregate, suggests the realistic
possibility of a criminal motive, however
amorphous, that was about to be acted upon.”35 And
as we have also pointed out earlier, reasonable
suspicion is a less demanding standard than
probable cause. It is a relatively low hurdle.
Sergeant Cox was confronted with unusual
circumstances that, from an objective standpoint,
gave rise to reason to believe that something
criminal had occurred, was occurring, or was about
to occur.
Consequently, we hold that the court of
appeals erred in concluding that Sergeant Cox
lacked reasonable suspicion to conduct an
investigative detention.
We reverse the judgment of the court of
appeals and affirm the judgment of the trial court.
Delivered: May 12, 2021
Publish
35

Id.

20a
WALKER, J., filed a dissenting opinion.
DISSENTING OPINION
In determining whether a police officer had
reasonable suspicion to detain a person, we look to
the totality of the circumstances; those circumstances
may all seem innocent enough in isolation, but if they
combine to reasonably suggest the imminence of
criminal conduct, an investigative detention is
justified. Derichsweiler v. State, 348 S.W.3d 906, 914
(Tex. Crim. App. 2011). The Court’s determination in
this case, however, looks to some of the
circumstances, not the totality. The actual totality of
the circumstances do not combine to reasonably
suggest imminent criminal conduct, and I agree with
the court of appeals that the detention in this case is
not supported by reasonable suspicion. I respectfully
dissent to this Court’s decision to reverse.
According to the Court’s opinion, “[v]iewed
together, here is what we have,”1 of the totality of
the circumstances that combine to suggest criminal
activity:

1

•

“Sergeant Cox knew that the parkand-ride
had
a
significant
association with criminal activity”;

•

“He also knew that, after midnight,
people did usually not loiter inside
their vehicles: they either got in
their vehicles and drove away

Majority op. at 13.

21a
immediately, or they arranged for
a ride home in someone else’s
vehicle”;
•

“Sergeant Cox also knew that
Appellant’s vehicle was occupied
after midnight”;

•

“the vehicle was not driving away”;

•

“(the lights were off)”;

•

“there was not a ‘ride-home’ vehicle next to
Appellant’s vehicle”;

•

“Sergeant Cox had seen movement
. . . at least one occupant of the car
was awake”; and

•

“Appellant’s vehicle [was] in a spot away
from the other vehicles……. ”2

The Court finds that these circumstances showed
that the presence of Appellant’s vehicle was odd and
out-of-the-ordinary; therefore, there was “a
reasonable suspicion ‘that something of an
apparently criminal nature is brewing.’”3
But the presence of Appellant’s vehicle was
neither odd nor out-of-the-ordinary. Cox confirmed
that, when he observed Appellant’s vehicle, there
Id.
Id. at 14 (quoting Derichsweiler, 348 S.W.3d at
917) (emphasis in Derichsweiler).
2
3

22a
were other vehicles in the park-and-ride at that
particular time.4 Cox further testified:
A. It’s a 24-hour park-and-ride. The
main use is during the daytime for
people that go into plant traffic and
park. But it is 24 hours open. So, we
have it -- people use it. There’s a bar
down the road. There’s people -- they
don’t have a big parking spot there.
There’s people that will park there
and commute over to the bar.5
Based on Cox’s testimony, Appellant’s vehicle was
parked at the park-and-ride during normal operating
hours,6 and the presence of Appellant’s vehicle was
ordinary.
The Court also finds that one of the
circumstances supporting the stop was that
Appellant’s vehicle was parked in a spot away from
other vehicles and thus relatively secluded. But
relative seclusion was never testified to. Cox testified
that there were “no other vehicles around
[Appellant’s vehicle].”7 Cox did not testify that
Appellant’s vehicle was hidden from view. Indeed, he
testified that he saw Appellant’s vehicle as part of
his routine patrol of the park-and-ride. The Court
Hearing on Motion to Suppress, Rep. R. vol. 1, 18.
Id. at 27.
6
The Court acknowledges that Appellant’s vehicle
was parked during the park-and-ride’s normal operating
hours. Majority op. at 12. This seems to have fallen by the
wayside in the actual analysis.
7
Hearing on Motion to Suppress, Rep. R. vol. 1, 18.
4
5

23a
reads more into this than is warranted by the plain
testimony provided by Cox. All that is supported by
this testimony is that Appellant’s vehicle was parked
separate from the other vehicles at the park-andride.
What sets Appellant’s vehicle apart, then, and
what the Court focuses upon, is Cox’s testimony that
he observed there were people inside the vehicle
which was dark. The lack of lights inside the vehicle
would be significant, according to the Court, because:
One might expect to see some sort of
light in the occupied vehicle, such as
from a cell phone calling the ride or
monitoring its progress, a CD player
playing a song while the person waits,
an internal light on to read a book, or
the light of a smartphone occupying
one’s time.8
The Court seems to take the lack of a light as
evidence that the people within are not engaged in
these particular behaviors that “one might expect”
from a person innocently waiting. Therefore, the lack
of a light is evidence that they are not innocently
waiting. In essence, Appellant was suspicious
because he was not doing what “one might expect” of
an innocent person.
But what “one might expect” of an innocent
person is no way to judge whether a stop was
supported by reasonable suspicion. So many
possibilities fall within what one might expect that I
do not think reasonable suspicion can be found
simply because a person is not engaged in conduct as
8

Majority op. at 13.

24a
consistent with some specific innocent activities that
“one might expect.” It fails to yield a rational
inference that they are engaged in any suspicious
activity, let alone criminal activity.
Yet the Court does seem to deduce that the
facts are more indicative of criminal activity than
innocent behavior. The opinion goes on to explain the
belief that darkness hides things which could include
drug crimes:
But when combined with the
occupant’s
out-of-the
ordinary
presence at the park-and-ride after
midnight, the relative seclusion of the
vehicle suggested that the occupant or
occupants were engaged in behavior
that needed to be hidden from others.
And the inference that behavior was
being hidden was reinforced by the
absence of lighting in the vehicle.
The unusual and secretive behavior of
the occupants of Appellant’s vehicle at
least gave rise to an objectively
reasonable suspicion that some sort of
crime was being committed or
contemplated. Drug crimes had
occurred with at least some frequency
at the park-and-ride, and a dark,
isolated vehicle would easily facilitate
such crimes. Or such a vehicle could
be a waiting spot for the commission
of some other crime, such as

25a
burglarizing someone else’s vehicle or
burglarizing a business, such as the
nearby bar. Or there might be some
other unknown crime that the
occupant of such a vehicle intends to
commit. As we have explained, an
officer does not have to pinpoint an
exact penal offense. Here, the unusual
and secretive nature of Appellant’s
behavior was sufficient to give rise to
a
reasonable
suspicion
“that
something of an apparently criminal
nature is brewing.”9
From the vehicle being dark and not parked adjacent
to the other vehicles, the Court sees unusual and
secretive behavior. But Cox never said that the
occupants of the vehicle were engaged in unusual or
secretive behavior; he testified that he saw
movement. Even if it could be reasonably suggested
that the people inside the vehicle were engaged in
something hidden and secretive simply because there
was movement in a dark vehicle parked separate
from other cars, I cannot make the same jump the
Court does from “hidden people in the dark” to
“crimes are brewing.” Should every place where
people are engaged in hidden—and therefore
private—business be reasonably suspected of
containing criminal activity such that the State has
license to poke its nose inside? There was no
testimony that people doing something hidden are
engaging in criminal activity. There was no
9

Id. at 13-14.

26a
testimony that dark vehicles are breeding grounds
for criminal activity. Nor was there testimony that
lights inside a vehicle negate criminal activity.
Nevertheless, the Court supposes that the occupants
of the vehicle could be waiting to commit a crime, yet
barely a breath earlier the Court found the lack of a
light inside the vehicle to suggest that the occupants
were not waiting for a ride.
It seems to me that, in order to uphold the
detention in this case, the Court has to resort to
stereotypes about light and dark, day and night, good
and evil.
The analysis should rest, instead, on the
totality of the circumstances that are in the record.
The park-and-ride has some “significant association
with criminal activity;” there was a vehicle parked at
the park-and-ride; it was not parked adjacent to
other vehicles that were also parked there; the
vehicle’s presence was neither odd nor out-of-theordinary; the vehicle was dark; and there were
people inside. That isn’t enough. As Justice Hassan’s
concurring opinion below pointed out, we explained
in Ceniceros, a case in which we held there was not
reasonable suspicion to detain the defendant based
upon his presence in an area where crimes (in that
case, burglaries) had been committed:
The only facts the officer had at the
initiation of his investigation were (1)
a number of recent burglaries in the
area and (2) four men standing
together on a sidewalk at an
intersection at 10:20 in the morning.
If such a suspicion were a reasonable

27a
inference from standing on a street
corner in this neighborhood, all
citizens passing through victimized
neighborhoods would be suspects, and
pedestrian checkpoints could be set up
to monitor their comings and goings.
Practices of this kind are repugnant to
a free society. If victimization by
crime becomes the justification for
indiscriminate intrusion by the state,
then we forfeit the security of our
persons and privacy from invasion by
the police on a hope of future security
from the criminal, and ultimately find
ourselves the displaced refugees in a
raging war on crime.
Johnson v. State, 602 S.W.3d 50, 68 (Tex. App.—
Houston [14th Dist.] 2020) (Hassan, J., concurring)
(quoting Ceniceros v. State, 551 S.W.2d 50, 55 (Tex.
Crim. App. 1977)). The same can be said about
sitting in a parked car at night, which is about as
worthy of suspicion as driving a clean van. See State
v. Cortez, 543 S.W.3d 198, 201 (Tex. Crim. App. 2018)
(officer testified that he began following the
defendant for driving a clean van down the interstate
with two people in it, which were “indicators of
potential criminal activity”).10 It is certainly less
In Cortez, the officer testified he stopped the clean
van after observing a traffic offense, namely, unlawfully
driving on the improved shoulder of the highway. Cortez,
543 S.W.3d at 202. This Court held that there was no
reasonable suspicion to support the stop. Id. at 209. The
evidence was unclear whether the van touched the fog
line, let alone crossed it, and, even if it did, the driver of
10

28a
suspicious than a person walking late at night in a
residential area where burglaries had occurred
mostly after midnight and grabbing at his waist
when he saw a police car drive by, or a person
walking down the street at night in a high-crime
location and the officer knew the person’s name and
believed him to be a known criminal. See Crain v.
State, 315 S.W.3d 43, 53 (Tex. Crim. App. 2010)
(holding no reasonable suspicion); Brodnex v. State,
485 S.W.3d 432, 438 (Tex. Crim. App. 2016) (holding
no reasonable suspicion).
In my view, not only are the circumstances
innocent enough in isolation, combined they do not
suggest the imminence of criminal conduct. See
Derichsweiler, 348 S.W.3d at 914. Based upon the
totality of the circumstances, there could not be a
reasonable suspicion that criminal activity was
imminent. The court of appeals was correct, and we
should affirm that judgment. Because this Court
does not, I respectfully dissent.
A Further Note
Having said that, what particularly troubles
me is how quickly Cox decided to detain Appellant.
Based upon Cox’s testimony at the motion to
suppress hearing, it appears that very little time
elapsed between the moment Cox first saw
the van was statutorily permitted to do so. Id. at 204–08.
Absent the traffic offense, the totality of the
circumstances to support the stop, which did not amount
to reasonable suspicion, consisted of the clean van,
containing two people, driving down the interstate. Id. at
201-02.

29a
Appellant’s vehicle and the decision to initiate the
stop. Certainly, reasonable suspicion can be formed
almost immediately where the officer sees a patently
obvious crime in progress, such as a carjacking,
mugging, or hit and run. In those unequivocal
circumstances, the need for patience and caution on
the part of law enforcement before initiating a stop
and eventual arrest is lessened.
Where the circumstances do not suggest
criminal activity but are, at the most, unusual, law
enforcement officers would be well-advised to follow
the time-honored advice to “look before you leap.” For
one thing, had Cox taken an extra moment to
observe and consider whether criminal activity was
afoot, he could have witnessed additional
circumstances, beyond merely “people in a dark
vehicle,” that would have actually supported the
detention at issue here. There was no immediate
need to escalate the situation before getting more of
the facts. There was no indication that someone was
at risk of imminent death or serious bodily injury or
that property was at risk of permanent, irreparable
damage. The risks of letting whatever was occurring
inside Appellant’s vehicle continue for a few
moments were slight. Cox’s decision to detain
Appellant, based on what appears to have been a
momentary glance at the vehicle, was premature at
best.
At worst, by detaining Appellant without
waiting to see something specific and articulable
suggesting criminal activity, it showed a cavalier
disregard for the protections of the Fourth
Amendment to be free from unreasonable searches
and seizures. It is undeniable that police exercises of

30a
authority are under increased attention and
scrutiny. While the Court finds Cox’s investigative
detention legal because “people in a dark vehicle”
might be suspicious, a growing and increasingly
vocal portion of the public might see the same
investigative detention as an unnecessary escalation
on the part of police. There is a greater need for
patience on the part of police when they encounter
circumstances that are, at the most, unusual.
Whether the detention was premature or whether it
represented a disregard for the Constitution, the
nearly-immediate decision to detain a person sitting
in a car, with no indication that the person was
engaged in criminal activity other than sitting there
in the dark, undermines the public trust in law
enforcement and the entire justice system.
Filed: May 12, 2021
Publish

31a
APPENDIX B
IN THE FOURTEENTH COURT OF APPEALS
No. 14-00361-CR
JACOB MATTHEW JOHNSON, Appellant
v.
THE STATE OF TEXAS
On Appeal from the County Court at Law No. 1 &
Probate Court
Brazoria County, Texas
Trial Court Cause No. 224018
MAJORITY OPINION
Appellant Jacob Matthew Johnson appeals his
conviction for possession of marijuana. In two issues,
he challenges the trial court’s denial of his motion to
suppress evidence on the basis that it was obtained
pursuant to an unlawful detention. We reverse and
remand.

I.

FACTUAL AND PROCEDURAL
BACKGROUND

Appellant was charged with possession of
marijuana in an amount of two ounces or less, a
Class B misdemeanor. See Tex. Health & Safety Code
Ann. §481.121(b)(1). He filed a motion to suppress. At
the suppression hearing, Officer Robert Cox of the

32a
Brazoria County Sherriff’s Office was the only
witness.
Officer Cox testified he was on patrol around
midnight on August 28, 2016, when he noticed a
“suspicious vehicle” in a park-and-ride parking lot
(the “Parking Lot”). Officer Cox shined his spotlight
twice across the vehicle, saw movement inside the
vehicle, and could tell that that two people occupied
it. The vehicle had no headlights or other lights
turned on. Officer Cox stopped his marked patrol car
within ten to fifteen yards of the vehicle and
activated his overhead emergency lights. He
cautiously approached the driver’s side of the vehicle.
When the vehicle’s window came down and Officer
Cox made contact with appellant, Officer Cox
detected the odor of marijuana, and he noticed that
appellant’s shorts were unbuttoned and unzipped.
The State offered the video recording from
Officer Cox’s patrol car, but appellant objected that
this exhibit was not relevant. The trial court
sustained the objection and did not admit the exhibit
into evidence. No other exhibit was admitted into
evidence at the suppression hearing, so Officer Cox’s
testimony was the only evidence before the trial
court for the motion to suppress.
The trial court signed an order denying
appellant’s motion to suppress in June 2017, and in
August 2017, signed the following findings of fact
and conclusions of law:

33a
FINDINGS OF FACT
1. The charged offense that is the subject of
this case occurred on or about August 28,
2016. R. at 13.
2. Sergeant Robert Cox testified that he was
on routine patrol around 12 AM. R. at 13.
3. Sergeant Cox further testified that as part
of his routine patrol, he regularly checks
the park and ride located at the
intersection of FM 2004 and FM 523. He
regularly
spotlights
vehicles
parked
overnight in that park and ride to deter
drug activity and burglaries. R. at 15-8.
4. The park and ride at the intersection of FM
2004 and FM 523 is a high crime area for
burglaries of motor vehicles, drug crimes,
and public lewdness. Sergeant Cox testified
that he had personally made several
arrests in the months prior to this offense
for such offenses in that park and ride. R.
at 15-8.
5. While conducting his routine patrol on or
about the day in question, Sergeant Cox
spotted the defendant’s vehicle parked in
the park and ride and observed movement
inside. Other vehicles were present in the
park and ride and that defendant’s vehicle
was parked away from the other vehicles.
R. at 18.
6. Sergeant Cox parked behind defendant’s
vehicle then turned on his overhead lights.
R. at 20, 26.

34a
7. Sergeant Cox did not block the defendant’s
vehicle from leaving when he parked
behind it. R. at 21-2.
8. Sergeant Cox then approached defendant’s
vehicle. R. at 18, 20.
9. Once the defendant rolled down his
window, Sergeant Cox observed the
defendant’s pants to be undone and
detected the smell of marihuana. R. at 22.
10. A copy of Sergeant Cox’s in-car video was
offered but not admitted into evidence. R.
at 28-9.
CONCLUSIONS OF LAW
1. Officers do not need reasonable suspicion to
initiate a consensual encounter with a
citizen. State v. Woodard[,] 341 S.W.3d 404
(Tex. Crim. App. 2011). Sergeant Cox’s
initial encounter with the defendant was a
proper consensual encounter that later
evolved into an investigative detention.
2. The sole fact that Sergeant Cox activat[ed]
his overhead lights alone did not elevate
the
consensual
encounter
into
an
investigative detention[.] State v. GarciaCantu[,] 253 S.W.3d 236, 242-3 (Tex. Crim.
App. 2008).
3. If the initial encounter was a detention, it
was properly supported by reasonable
suspicion of criminal activity as necessary
to detain the defendant based on specific,
articulable facts, namely: his presence in
the park and ride, a high crime area, after
the park and ride’s normal operating hours.

35a
Terry v. Ohio[,] 391 U.S. 1 (1968); Amorella
v. State[,] 554 S.W.2d 700 (Tex. Crim. App.
1981); Bryant v. State[,] 161 S.W.3d 758
(Tex. App.-2nd Dist. 2005)(no pet) [sic].
At a bench trial in May 2018, appellant entered a
plea of “guilty.” The trial court found appellant guilty
and assessed his punishment at three days’
confinement in jail with a three-day credit and a
$500 fine. Appellant filed a timely appeal.
II. ISSUES AND ANALYSIS
Appellant argues under his first issue that the
interaction between Officer Cox and appellant was a
seizure rather than a consensual encounter. Under
his second issue, appellant asserts that Officer Cox
lacked reasonable suspicion to lawfully detain him.
In reviewing a trial court’s ruling on a motion
to suppress, we apply an abuse-of-discretion
standard, and we overturn the trial court’s ruling
only if it falls outside the zone of reasonable
disagreement. Martinez v. State, 348 S.W.3d 919, 922
(Tex. Crim. App. 2011). We apply a bifurcated
standard of review, giving almost total deference to a
trial court’s determination of historical facts and
mixed questions of law and fact that rely upon the
credibility of a witness, but applying a de novo
standard of review to pure questions of law and
mixed questions that do not depend on credibility
determinations. Id. at 922–23. In a motion-tosuppress hearing, the trial court is the sole trier of
fact and judge of the credibility of the witnesses and
the weight to be given their testimony. Baird v.

36a
State, 398 S.W.3d 220, 226 (Tex. Crim. App. 2013).
Thus, the trial court may believe or disbelieve all or
any part of a witness’s testimony, even if that
testimony is not controverted. Id.
When a trial court makes written findings of
fact, as it did in this case, we examine the record in
the light most favorable to the ruling and uphold
those fact findings so long as the record supports
them. Id. We then determine de novo the legal
significance of the facts as found by the trial court.
Id. We will sustain the trial court’s ruling if the
record reasonably supports that ruling and is correct
on any theory of law applicable to the case. Valtierra
v. State, 310 S.W.3d 442, 447–48 (Tex. Crim. App.
2010).
A. Does the record support the trial court’s
determination that no investigative
detention occurred before the car
window was lowered?
Under his first issue appellant asserts a
Fourth Amendment seizure had occurred before the
car window was lowered. The law recognizes three
distinct types of police/citizen interactions: (1)
consensual encounters that do not implicate the
Fourth Amendment; (2) investigative detentions that
are Fourth Amendment seizures of limited scope and
duration that must be supported by a reasonable
suspicion of criminal activity; and (3) arrests, the
most intrusive of Fourth Amendment seizures, that
are reasonable only if supported by probable cause.
Wade v. State, 422 S.W.3d 661, 667 (Tex. Crim. App.
2013). Police officers are as free as any other citizen

37a
to approach citizens to ask for information or
cooperation. Id. These consensual encounters may be
uncomfortable for a citizen, but they are not Fourth
Amendment seizures. Id.
No bright-line rule governs when a consensual
encounter becomes a detention. Id. Courts must take
into account the totality of the circumstances of the
interaction to decide whether a reasonable person
would have felt free to ignore the police officer’s
request or terminate the consensual encounter. Id.
Under the Fourth Amendment caselaw, courts
presume that a reasonable person has considerable
fortitude. Id. at 667, n.19. The law views an
encounter as a consensual interaction and, as such,
the citizen may terminate the encounter at any time.
Id. at 667–68. If ignoring the request or terminating
the encounter is an option, then no Fourth
Amendment seizure has occurred. Id. at 668. But, if
an officer through force or a show of authority
sufficiently conveys the message that the citizen is
not free to leave or to ignore the officer’s request, the
encounter is no longer consensual; it is a Fourth
Amendment detention or arrest, subject to Fourth
Amendment scrutiny. Id. The question of whether
the particular facts show that a consensual
encounter has evolved into a detention is a legal
issue that we review de novo. Id.
In considering police contacts with citizens
seated in parked cars, the Court of Criminal Appeals
has stated that the following approach “is useful
when examining police contacts with citizens in
parked cars”:

38a
The mere approach and questioning of
[citizens seated in parked cars] does not
constitute a seizure. The result is not
otherwise when the officer utilizes some
generally accepted means of gaining the
attention of the vehicle occupant or
encouraging him to eliminate any barrier
to conversation. The officer may tap on
the window and perhaps even open the
door if the occupant is asleep. A request
that the suspect open the door or roll
down the window would seem equally
permissible, but the same would not be
true of an order that he do so. Likewise,
the encounter becomes a seizure if the
officer orders the suspect to “freeze” or to
get out of the car. So too, other police
action which one would not expect if the
encounter was between two private
citizens—boxing the car in, approaching
it on all sides by many officers, pointing a
gun at the suspect and ordering him to
place his hands on the steering wheel, or
use of flashing lights as a show of
authority—will likely convert the event
into a Fourth Amendment seizure.
State v. Garcia-Cantu, 253 S.W.3d 236, 243 (Tex.
Crim. App. 2008) (quoting 4 Wayne R. LaFave,
Search and Seizure § 9.4(a), at 433–35 (4th ed. 2004))
(footnotes omitted).
Courts must factually evaluate citizen/police
encounters on a case-by-case basis, each on its own
terms; there are no per se rules. See Garcia-Cantu,

39a
253 S.W.3d at 243. This test is necessarily imprecise,
because it is designed to assess the coercive effect of
police conduct, taken as a whole, rather than to focus
on particular details of that conduct in isolation. Id.
at 243–44. What constitutes a restraint on liberty
prompting a reasonable person to conclude that he is
not free to leave or to ignore the officer’s request will
vary, not only with the particular police conduct at
issue, but also with the setting in which the conduct
occurs. Id. at 244. The officer’s conduct is the
primary focus, but time, place, and attendant
circumstances matter as well. Id.
Officer Cox described his actions on the night
of the arrest, testifying to the following facts:









He was conducting a routine
patrol around midnight when
he checked the Parking Lot and
saw a vehicle parked there.
He shined his spotlight across
the Parking Lot and twice
across the vehicle.
He saw movement and two
people inside the vehicle.
The vehicle had no headlights
or other lights turned on, and
no other vehicles were near it.
He stopped his marked patrol
car within ten to fifteen yards of
the other vehicle, and he did not
block the other vehicle in a way
that prevented it from exiting
the Parking Lot.

40a








He activated his overhead
emergency lights so that it
looked like “a normal police
pulling somebody over [to give
that person] a traffic ticket.”
Activating the patrol car’s
overhead
emergency
lights
turned on the patrol car’s audio
and video system.
Officer
Cox
cautiously
approached the driver’s side of
the vehicle.
When the vehicle’s window
came down and he made contact
with appellant, Officer Cox
detected the odor of marijuana,
and he noticed that appellant’s
shorts were unbuttoned and
unzipped.

The Court of Criminal has noted that fact
patterns involving a police officer’s use of a patrol
car’s overhead emergency lights are frequently held
sufficient to constitute an investigative detention of a
citizen, whether in a parked car or a moving car. See
Garcia-Cantu, 253 S.W.3d at 245 n. 43. Still, courts
must consider the circumstances. Though a patrol
car’s overhead emergency lights tell people to “stop,”
the message is not always in a seizure context. For
example, sometimes, after pulling over on the side of
a roadway at night, a police officer might activate the
overhead emergency lights for safety purposes, to
avoid getting hit by passing cars or causing an
accident. So, while flashing overhead emergency
lights signal “stop,” context matters.

41a
In this context, Officer Cox’s patrol car was in
a parking lot around midnight with no cars in the
area other than the car that Officer Cox was
examining. After shining a spotlight into that car
twice, Officer Cox stopped his marked patrol car
within ten to fifteen yards of the other vehicle,
turned on his overhead emergency lights, and
approached the vehicle. In this context, Officer Cox’s
use of the overhead emergency lights weighs in favor
of concluding that a reasonable person would not
have felt free to leave the Parking Lot or to ignore a
request by Officer Cox to lower the car window. See
id. at 243, 245 n. 43. Nonetheless, this fact does not
mandate that conclusion, and we still must look to
the totality of the circumstances of the interaction.
See id. at 243–45; Wade, 422 S.W.3d at 667. After
examining all of the circumstances of the interaction
in a light most favorable to the trial court’s ruling,
the
evidence
at
the
suppression
hearing
demonstrates that Officer Cox, through a show of
authority, sufficiently conveyed the message that
appellant was not free to leave the Parking Lot or to
ignore a request to lower the car window. See Wade,
422 S.W.3d at 668; Garza v. State, 771 S.W.2d 549,
557–58 (Tex. Crim. App. 1989); Klare v. State, 76
S.W.3d 68, 73 (Tex. App.—Houston [14th Dist.] 2002,
pet ref’d).
Therefore, we conclude that an investigative
detention and seizure had occurred before the car
window was lowered. See Garza, 771 S.W.2d at 557–
58; Klare, 76 S.W.3d at 73.

42a
B. Does the record support the trial court’s
determination that at the time of the
seizure, Officer Cox had reasonable
suspicion to warrant an investigative
detention?
Appellant contends in his second issue that
the trial court erroneously denied his motion to
suppress because Officer Cox lacked reasonable
suspicion to detain him. Reasonable suspicion of
criminal activity permits a temporary seizure for
questioning that is limited to the reason for the
seizure. Wade, 422 S.W.3d at 668. A police officer has
reasonable suspicion for a detention if the officer has
specific, articulable facts that, when combined with
rational inferences from those facts, would lead the
officer reasonably to conclude that the person
detained is, has been, or soon will be engaged in
criminal activity. Id. This standard is an objective
one that calls for the court to disregard the actual
subjective intent of the arresting officer and look,
instead, to whether an objectively justifiable basis for
the detention existed. Id.
In applying the standard courts also look to
the totality of the circumstances; individual
circumstances may seem innocent enough in
isolation, but if they combine in a way that
reasonably would suggest the imminence of criminal
conduct, the law will deem an investigative detention
justified. Id. The facts need not point to a particular
and distinctively identifiable criminal offense.
Johnson v. State, 444 S.W.3d 209, 214 (Tex. App.—
Houston [14th Dist.] 2014, pet. ref’d). “It is enough to
satisfy the standard of reasonable suspicion that the

43a
information is sufficiently detailed and reliable—i.e.,
it supports more than an inarticulate hunch or
intuition—to suggest that something of an
apparently criminal nature is brewing.” Wade, 422
S.W.3d at 668. To support a reasonable suspicion,
“articulable facts must show ‘that some activity out
of the ordinary has occurred, some suggestion to
connect the detainee to the unusual activity, and
some indication that the unusual activity is related to
crime.’” Martinez v. State, 348 S.W.3d 919, 923 (Tex.
Crim. App. 2011) (emphasis added). As with the
question of whether a consensual encounter has
become a Fourth Amendment detention, we review
de novo the question of whether a certain set of
historical facts gives rise to reasonable suspicion. Id.
at 669. When a defendant asserts an unlawful
detention under the Fourth Amendment, the
defendant bears the burden of producing evidence to
rebut the presumption of proper conduct by law
enforcement officers. See State v. Woodard, 341
S.W.3d 404, 412 (Tex. Crim. App. 2011). A defendant
can satisfy this burden with evidence that the
detention occurred without a warrant. See id. In
today’s case the State stipulated that there was no
warrant, so the State had the burden to show
reasonable suspicion. See id.
The trial court found that the Parking Lot was
a high crime area for burglaries of motor vehicles,
drug crimes, and public lewdness. According to the
trial court, Officer Cox testified that he had made
several arrests for these types of offenses in the
months before the charged offense. Officer Cox did
not testify that he personally had made several
arrests in the Parking Lot for these types of offenses

44a
in that time period. Instead, Officer Cox testified that
in the months around the time of the charged
offense, he had gone to that Parking Lot three of four
times “[f]or calls of service.” He did not identify the
nature of the service calls, nor did he say whether he
made an arrest during any of these calls. Officer Cox
did not testify that he made any arrests at the
Parking Lot for burglary of a motor vehicle, a drug
crime, or public lewdness. Officer Cox did testify that
he had patrolled the area including the Parking Lot
for at least ten years and that there were burglaries
of motor vehicles, drug crimes, and public lewdness
in the Parking Lot. Officer Cox never specified how
many of these criminal offenses had occurred there.
He testified that he had responded to calls to the
Parking Lot on “[s]everal occasions,” but he did not
state the reason for these calls or whether he made
any arrests as a result of these calls. Officer Cox also
stated that over ten years he had “been out there . . .
a lot,” but he did not state whether he was there as
part of his patrol duties or whether he had been
called there as a result of possible criminal activity.
Again, Officer Cox did not state that he made any
arrests during the times that he went to the Parking
Lot. Nor did he testify that the Parking Lot was a
high crime area. Officer Cox also testified that he has
had to make some calls for service to the Parking Lot
for criminal activity. He did not state how many
times he made these calls or for what criminal
activity.
After examining the record in the light most
favorable to the trial court’s ruling, we conclude that
the record does not support the trial court’s findings
that the Parking Lot is a high crime area for

45a
burglaries of motor vehicles, drug crimes, and public
lewdness and that Officer Cox testified he had made
several arrests for these types of offenses in the
months prior to the charged offense; so, we disregard
these findings. See Baird v. State, 398 S.W.3d 220,
226 (Tex. Crim. App. 2013); Miller v. State, 393
S.W.3d 255, 263–64 (Tex. Crim. App. 2012).
Officer Cox testified as follows:


He had patrolled this area for more
than ten years.



There were burglaries of motor
vehicles, drug crimes, and public
lewdness in that Parking Lot.



He was familiar with the Parking
Lot, had “been out there . . . a lot.”



In the months around the time of
the charged offense, Officer Cox
had gone to that Parking Lot three
of four times “[f]or calls of service.”



He testified that he had responded
to calls to that Parking Lot on
“[s]everal occasions.”



Officer Cox has had to make some
calls for service to the Parking Lot
for criminal activity.



The Parking Lot was open and was
a 24-hour park-and-ride parking
lot.

46a


People mainly use the Parking Lot
during the daytime, but some
people park there and walk to a
nearby bar that does not have a big
parking lot.



It is out of the ordinary for
somebody to be in a parked car in
the Parking Lot after midnight
with no other vehicle there to pick
them up.



Officer Cox was conducting a
routine patrol around midnight
when he checked this Parking Lot.



Officer Cox saw a vehicle parked in
the Parking Lot.



Officer Cox shined his spotlight
across the Parking Lot and twice
across the vehicle.



Officer Cox saw movement in the
vehicle and could tell it was
occupied by two people.



The vehicle had no headlights or
other lights turned on, and no
other vehicles were near it.

In Klare v. State, this court determined that a
police officer lacked reasonable suspicion to stop the
truck the defendant was driving based on the
following articulable facts: (1) it was 2:30 a.m.; (2)
while driving on a highway, the officer saw a truck
parked behind a shopping center; (3) the businesses

47a
in the shopping center were closed; (4) there had
been burglaries at the shopping center in the past,
though the police officer did not say how recent or
how many; (5) the officer turned into the parking lot
shortly afterwards and discovered that the truck was
gone; (6) the officer then turned onto an adjoining
road and within fifteen to twenty seconds came upon
a truck that he believed to be the same as the one at
the shopping center; and (7) the officer wanted to
identify the truck. 76 S.W.3d 68, 71 (Tex. App.—
Houston [14th Dist.] 2002, pet. ref’d). Our court
noted that a given locale’s being well-known for
criminal activity does not by itself justify a detention
but is among the various factors that may be taken
into account. Id. at 74. Although relevant to our
analysis, both time of day and the level of criminal
activity in the area are facts that go to the suspect’s
surroundings rather than the suspect himself. Id. at
75. Consequently, courts generally require something
else particular to the suspect’s behavior to justify a
suspicion of criminal activity. Id. The Klare court
stated that the police officer did not have any prior
knowledge of the appellant in that case or witness
any suspicious or unlawful activity. Id. at 77. The
Klare court concluded that the record did not support
a finding that the police officer had reasonable
suspicion to detain appellant and that the trial court
erred in denying appellant’s motion to suppress. See
id.
Under the applicable standard of review,
examining the record in the light most favorable to
the trial court’s ruling, we conclude that the record
does not reasonably support the trial court’s
determination that Officer Cox had reasonable

48a
suspicion to detain appellant. See Gurrola v. State,
877 S.W.2d 300, 302–05 (Tex. Crim. App. 1994);
Klare, 76 S.W.3d at 73–77. Even under the
deferential standard of review, we conclude that
Officer Cox lacked specific, articulable facts that,
when combined with rational inferences from those
facts, would lead him reasonably to conclude that
appellant was, had been, or soon would be engaged in
criminal activity. See Gurrola, 877 S.W.2d at 302–05;
Klare, 76 S.W.3d at 73–77. Therefore, the trial court
erred in denying appellant’s motion to suppress.
C. Is the trial court’s error in denying the
motion to suppress reversible?
Having determined that the trial court erred
in denying appellant’s motion to suppress, we now
consider whether this error is reversible. See Tex. R.
App. P. 44.2. The error violated appellant’s federal
constitutional rights. Torres v. State, 182 S.W.3d 899,
901, 903 (Tex. Crim. App. 2005). The Court of
Criminal Appeals has stated that appellate courts
are not to speculate as to an appellant’s reasons for
entering a “guilty” plea or as to whether appellant
would have done so if the motion to suppress had
been granted. See McKenna v. State, 780 S.W.2d 797,
799–800 (Tex. Crim. App. 1989); Paulea v. State, 278
S.W.3d 861, 867 (Tex. App.—Houston [14th Dist.]
2009, pet. ref’d). As long as the evidence that should
have been suppressed “would in any measure
inculpate the accused,” we must presume that the
trial court’s denial of appellant’s motion to suppress
influenced appellant’s decision to plead “guilty” and
is reversible error. See McKenna, 780 S.W.2d at 799–

49a
800; Paulea, 278 S.W.3d at 867. Because the evidence
seized, namely the marijuana that appellant was
charged with possessing, was inculpatory, we
presume the trial court’s erroneous denial of
appellant’s motion to suppress influenced appellant’s
decision to plead “guilty.” See Paulea, 278 S.W.3d at
867. Therefore, the error is reversible.
III. CONCLUSION
When Officer Cox activated his emergency
overhead lights and left his patrol car to make
contact with appellant’s vehicle, an investigative
detention occurred and no reasonable suspicion
supported that detention. The trial court abused its
discretion in denying appellant’s motion to suppress.
Having found this error reversible, we sustain
appellant’s two issues, reverse the trial court’s
judgment, and remand for further proceedings
consistent with this opinion.
/s/ Kem Thompson Frost
Kem Thompson Frost
Chief Justice
Panel consists of Chief Justice Frost and Justices
Wise and Hassan (Hassan, J., concurring).
Publish — Tex. R. App. P. 47.2(b).

50a
CONCURRING OPINION
Appellant argues the trial court erred in
denying his motion to suppress because (1) the
interaction between Officer Cox and Appellant was
not a consensual encounter, and (2) Officer Cox
lacked reasonable suspicion to lawfully detain him. I
concur in the majority’s disposition of Appellant’s
issues, but disagree with certain portions of the
majority’s analysis.
I.

Governing Law

There are three distinct categories of
interactions between police officers and citizens: (1)
encounters, (2) investigative detentions, and (3)
arrests. Johnson v. State, 414 S.W.3d 184, 191 (Tex.
Crim. App. 2013). In determining which category an
interaction falls into, courts look at the totality of the
circumstances. Crain v. State, 315 S.W.3d 43, 49
(Tex. Crim. App. 2010). An encounter is a consensual
interaction which the citizen is free to terminate at
any time. Id. Unlike an investigative detention and
an arrest, an encounter is not considered a seizure
triggering Fourth Amendment protection. Id. “An
encounter takes place when an officer approaches a
citizen in a public place to ask questions, and the
citizen is willing to listen and voluntarily answers.”
Id.
Conversely, an investigative detention occurs
when a person yields to a police officer’s show of
authority under a reasonable belief that he is not free
to leave. Id. In considering police contacts with

51a
citizens seated in parked cars, the Court of Criminal
Appeals provided examples that “will likely convert”
encounters into Fourth Amendment seizures: “boxing
the car in, approaching it on all sides by many
officers, pointing a gun at the suspect and ordering
him to place his hands on the steering wheel, or use
of flashing lights as a show of authority.” See State v.
Garcia-Cantu, 253 S.W.3d 236, 243 (Tex. Crim. App.
2008) (emphasis added) (quoting 4 Wayne R. LaFave,
Search and Seizure § 9.4(a), at 427 (4th ed. 2004))
(footnotes omitted).
Nonetheless, the court reiterated that each
citizen-police encounter must be factually evaluated
on its own terms because there are no per se or
bright-line rules in determining whether a policecitizen interaction is an encounter or an
investigatory detention. See id. When a court is
conducting its determination of whether an
interaction constituted an encounter or a detention,
it focuses on whether the police officer conveyed a
message that compliance with the officer’s request
was required. Crain, 315 S.W.3d at 49.
Because the Fourth Amendment to the United
States Constitution protects a citizen from
unreasonable searches and seizures at the hands of
government officials, reasonable suspicion must
support investigative detentions. Id. at 52.
Reasonable suspicion exists if a police officer “has
specific, articulable facts that, combined with
rational inferences from those facts,” reasonably lead
to the conclusion that the person detained is, has
been, or will soon be engaged in criminal activity.
Derichsweiler v. State, 348 S.W.3d 906, 914 (Tex.
Crim. App. 2011).

52a
This standard is an objective one that
disregards the actual subjective intent of the police
officer and looks to whether there was an objectively
justifiable basis for the detention. Id. This standard
looks to the totality of the circumstances. Id. It
considers not whether particular conduct is innocent
or criminal, but instead the degree of suspicion that
attaches to particular noncriminal acts. Id. Although
circumstances may all seem innocent enough in
isolation, if they combine to reasonably suggest
criminal conduct is imminent, an investigative
detention is justified. Id.
Further, the facts need not point to a
particular and distinctively identifiable criminal
offense. Johnson v. State, 444 S.W.3d 209, 214 (Tex.
App.—Houston [14th Dist.] 2014, pet. ref’d); see also
Derichsweiler, 348 S.W.3d at 916. It is only necessary
for the information to be sufficiently detailed and
reliable to “suggest that something of an apparently
criminal nature is brewing” or afoot. Derichsweiler,
348 S.W.3d at 916-17 (emphasis in original).
“However, although it may be a ‘close call,’ the
information must amount to more than a mere hunch
or intuition.” Johnson, 444 S.W.3d at 214 (citing
Derichsweiler, 348 S.W.3d at 916-17). To support a
reasonable suspicion, “articulable facts must show
‘that some activity out of the ordinary has occurred,
some suggestion to connect the detainee to the
unusual activity, and some indication that the
unusual activity is related to crime.’” Derichsweiler,
348 S.W.3d at 916 (emphasis in original) (quoting
Meeks v. State, 653 S.W.2d 6, 12 (Tex. Crim. App.
1983), abrogated by Holcomb v. State, 745 S.W.2d
903 (Tex. Crim. App. 1988)).

53a
When a defendant asserts an unlawful
detention under the Fourth Amendment, the
defendant bears the burden of producing evidence to
rebut the presumption of proper conduct by law
enforcement. See State v. Woodard, 341 S.W.3d 404,
412 (Tex. Crim. App. 2011). A defendant can satisfy
this burden with evidence that the detention
occurred without a warrant. See id. If the defendant
satisfies the initial burden, the burden then shifts to
the State to establish that the detention was
nonetheless reasonable because it was supported by
reasonable suspicion. See id. The State meets this
burden by presenting specific facts known to the
police officer at the moment of the detention. See id.
In this case, Appellant argues he was
unlawfully detained when Officer Cox activated the
police car’s overhead lights and therefore Officer
Cox’s initial encounter with Appellant was not a
consensual encounter. I agree.

II.

The use of overhead emergency lights
constituted a seizure.

“A court must step into the shoes of the
defendant and determine from a common, objective
perspective whether the defendant would have felt
free to leave.” Garcia-Cantu, 253 S.W.3d at 244
(citing United States v. Steele, 782 F. Supp. 1301,
1309 (S.D. Ind. 1992)). Appellant’s counsel secured
the following description of the overhead lights at the
hearing: “[S]o if you turned on your overhead lights,
it would be like a normal police car pulling somebody
over if you got a traffic ticket. Right? I mean, that’s
what your vehicle looked like?” Officer Cox replied:
“Yes, sir.”

54a
Despite citing Garcia-Cantu, the trial court
erroneously concluded that the officer’s use of
overhead emergency lights under these facts did not
constitute a seizure. See Garcia-Cantu, 253 S.W.3d
at 245 n.43 (“[t]he use of ‘blue flashers’ or police
emergency lights are frequently held sufficient to
constitute a detention or seizure of a citizen, either in
a parked or moving car.”).1
Citing Hammons v. State, 940 S.W.2d 424, 427-28 (Ark.
1997) (defendant sitting in parked automobile was seized
when police activated blue light; light was display of
authority that would indicate to a reasonable person he
was not free to leave); People v. Bailey, 222 Cal. Rptr. 235,
236-37 (Cal. Ct. App. 1985) (officer pulled in behind
parked car and activated emergency lights; defendant
seized as reasonable person would not have felt free to
leave); State v. Donahue, 742 A.2d 775, 779-80 (Conn.
1999) (defendant was seized when officer pulled up behind
parked vehicle and activated red, yellow, and blue
flashing lights); Hrezo v. State, 780 So. 2d 194, 195 (Fla.
Dist. Ct. App. 2001) (when a police officer turns the
emergency and takedown lights on behind a lawfully
parked vehicle, a reasonable person in that vehicle would
expect to be stopped if he or she drove away); Lawson v.
State, 707 A.2d 947, 949-50 (Md. Ct. Spec. App. 1998) (the
activation of the emergency lights was a show of authority
that constituted a seizure because it communicated to a
reasonable person in the parked car that there was an
intent to intrude upon the defendant’s freedom to move
away); State v. Walp, 672 P.2d 374, 375 (Or. Ct. App.
1983) (use of emergency lights after defendant had
voluntarily stopped was sufficient show of authority and
reasonable person would not have felt free to leave); State
v. Gonzalez, 52 S.W.3d 90, 97 (Tenn. Crim. App. 2000) (a
police officer clearly initiates a seizure by turning on his
blue lights behind a parked vehicle because the lights
1

55a
“Overhead emergency lights are synonymous
with an instruction to stop.” Hughes v. State, 337
S.W.3d 297, 301 (Tex. App.—Texarkana, no pet.); see
also Klare v. State, 76 S.W.3d 68, 73 (Tex. App.—
Houston [14th Dist.] 2002, pet. ref’d) (citing
Hernandez v. State, 963 S.W.2d 921 (Tex. App.—San
Antonio 1998, pet. ref’d) (activating emergency lights
would cause a reasonable person to believe he is not
free to leave)). This commonsensical interpretation of
emergency lights as a signal of legitimate statesponsored authority has been followed by the Court
of Criminal Appeals,2 this court,3 the First Court of
convey the message that the occupants are not free to
leave); State v. Burgess, 657 A.2d 202, 203 (Vt. 1995)
(even if officer subjectively intends to activate his blue
lights for safety reasons, the use of the lights on the
defendant served as a restraint to prevent his departure
from the pull-off area of the road); Wallace v.
Commonwealth, 528 S.E.2d 739, 741- 42 (Va. Ct. App.
2000) (driver of parked vehicle seized because a
reasonable person with a police cruiser parked behind
him with its emergency lights flashing would not have felt
free to leave); and State v. Stroud, 634 P.2d 316, 318-19
(Wash. Ct. App. 1981) (“the officers’ attempt to summon
the occupants of the parked car with both their emergency
lights and high beam headlights constituted a show of
authority sufficient to convey to any reasonable person
that voluntary departure from the scene was not a
realistic alternative” and, had driver attempted to leave
after being so signaled, he could arguably have been
charged with misdemeanor)).
2
Crain v. State, 315 S.W.3d 43, 52 (Tex. Crim. App.
2010) (officer’s use of “his patrol car’s overhead lights in
the appellant’s direction, coupled with his request-thatsounded-like-an- order . . . caused the appellant to yield to

56a
Appeals,4 and other intermediate appellate courts. 5
[the officer’s] show of authority — a reasonable person in
appellant’s shoes would not have felt free to leave or
decline the officer’s requests”).
3
See Lewis v. State, No. 14-03-01185-CR, 2005 WL
1552648, at *1 (Tex. App.—Houston [14th Dist.] July 5,
2005, pet. struck) (mem. op., not designated for
publication) (“officers turned on their emergency lights to
pull him over for a traffic violation”); Hamilton v. State,
No. 14-03-01052-CR, 2005 WL 549546, at *1 (Tex. App.—
Houston [14th Dist.] Mar. 10, 2005, pet. ref’d) (mem. op.,
not designated for publication) (the officer “activated his
emergency lights to signal 517196, at *1 (Tex. App.—
Houston [14th Dist.] Apr. 4, 2002, no pet.) (not designated
for publication) (“the officers activated their emergency
lights, signaling appellant to pull over”).
4
Fenn v. State, No. 01-10-00383-CR, 2011 WL
2651914, at *1 (Tex. App.—Houston [1st Dist.] July 7,
2011, pet. ref’d) (mem. op., not designated for publication)
(the officer “activated his emergency lights to pull
appellant over”); Smith v. State, Nos. 01-00-01311-CR, 0100-01312-CR, 2002 WL 123345, at *1 (Tex. App.—
Houston [1st Dist.] Jan. 31, 2002, no pet.) (not designated
for publication) (same); Johnson v. State, No. 01-98-00930CR, 2001 WL 722828, at *1 (Tex. App.—Houston [1st
Dist.] June 28, 2001, pet. ref’d) (not designated for
publication) (the officer “activated his patrol car’s
emergency lights, indicating to appellant to pull over”);
and Hilliard v. State, Nos. 01-91-00799-CR, 01-91-00800CR, 1992 WL 347591, at *1 (Tex. App.—Houston [1st
Dist.] Nov. 25, 1992, pet. ref’d) (not designated for
publication) (same).
5
Larry v. State, No. 12-13-00072-CR, 2014 WL
2521593, at *1 (Tex. App.—Tyler May 30, 2014, no pet.)
(mem. op., not designated for publication) and Hudson v.
State, 247 S.W.3d 780, 785 (Tex. App.—Amarillo 2008, no
pet.) (finding police officer illegally detained a pedestrian

57a
Reasonable people who are approached by a
police vehicle with flashing overhead blue lights are
expected to stay where they are and comply with
officers’
instructions.
An
unambiguous
and
universally accepted expression of governmental
authority to “stop” (and thus not move or leave) is not
a signal that means whatever an arresting officer
subjectively says it is intended to mean; doing
otherwise would signal to the People that they need
neither stop nor obey when such lights are utilized
because they can now mean something other than
“stop”. See Garcia-Cantu, 253 S.W.3d at 243 (“It is
the display of official authority and the implication
that this authority cannot be ignored, avoided, or
terminated, that results in a Fourth Amendment
seizure. At bottom, the issue is whether the
surroundings and the words or actions of the officer
and his associates communicate the message of ‘We
Who Must Be Obeyed.’”).
Further, I cannot agree with the majority’s
statement that “Though a patrol car’s overhead
emergency lights tell people to ‘stop,’ the message is
not always in the seizure context.” Flashing overhead
blue lights are unequivocally an instruction to “stop”
and thus an instruction to not leave. When a person
is instructed by police to not leave, he is seized. A
reasonable person would not feel free to leave when a
police officer pulls up behind him with flashing
overhead blue lights which are synonymous with an
instruction to “stop”. There is no consensual
interaction when a person is instructed to stop;
instead, a seizure occurs. The question then becomes
at approximately 3:50 a.m. after he activated his
emergency lights and “called to him”).

58a
whether the seizure was lawful under
circumstances of the case. Here it was not.
III.

the

The seizure was unlawful
A. The time of day is not itself suspicious.

Despite acknowledging that the park-and-ride
was open 24 hours a day, Officer Cox testified he was
suspicious because Appellant’s vehicle was there
after normal operating hours. “Time of day is a factor
that a court may take into consideration when
determining whether an officer’s suspicion was
reasonable; however, time of day is not suspicious in
and of itself.” Klare, 76 S.W.3d at 73-74.6 Officer
Cox’s suspicion was even less warranted in this case
(Citing (inter alia) United States v. Cortez, 449
U.S. 411, 420-21 (1981) (pointing out that time of day may
be a legitimate, yet marginal consideration, in a
reasonable suspicion analysis); Brown v. Tex., 443 U.S. 47,
53 (1979) (concluding that nighttime activity is not per se
sufficient to create reasonable suspicion of criminal
activity); United States v. Jimenez-Medina, 173 F.3d 752,
756 (9th Cir. 1999) (finding factors of time of day, along
with four other factors, insufficient to support inference of
reasonable suspicion); Scott v. State, 549 S.W.2d 170, 17273 (Tex. Crim. App. 1976) (finding that time of day 1:30
a.m., even with other factors such as a high crime area
and reports of hubcap thefts in the past, was insufficient
to support reasonable suspicion); and Gamble v. State, 8
S.W.3d 452, 453-54 (Tex. App.—Houston [1st Dist.] 1999,
no pet.) (invalidating a search when a detention was
based on a history of drug sales in the area, frequent calls
for police assistance to the area, and time of day, i.e., 3:00
a.m.)).
6

59a
because the park-and- ride was always open. Id.
(citing United States v. Nicholas, 104 F.3d 368 (10th
Cir. 1996)) (pointing out that time of day has little
relevance when defendant’s car was parked at an
establishment that was open for business twentyfour hours a day).
The Court of Criminal Appeals addressed a
similar fact pattern in Tunnell v. State, 554 S.W.2d
697 (Tex. Crim. App. 1977). There, the arresting
officer saw three men in a parked car with its lights
turned off in a parking lot at 2:16 a.m.; despite
knowing that a local business was open 24 hours a
day, the officer thought the activity was suspicious.
Id. at 697-98. The officer turned his car around, saw
defendant’s car leave the parking lot, and stopped it
despite admitting that defendant “committed no
traffic violations, engaged in no criminal activity,
made no furtive gestures, and took no evasive
action.” Id. at 698. The Court of Criminal Appeals
concluded “that the officer’s investigative action was
unreasonable and thus in violation of the Fourth
Amendment to the United States Constitution and
Article I, Section 9 of the Texas Constitution.” Id. at
699; see also Klare, 76 S.W.3d at 75 (“A lawful stop
must be based on more than a vehicle’s suspicious
location or time of day.”); Collins v. State, No. 14-0600889-CR, 2007 WL 3287879, at *4 (Tex. App.—
Houston [14th Dist.] Nov. 6, 2007, no pet.) (mem. op.,
not designated for publication) (“[C]ertainly, simply
sitting in a parked car at 2:35 a.m. is not sufficient.”).
Here, there is no evidence the arresting officer saw
anything more than Appellant and a companion
sitting in a parked car in a parking lot that was open
for business 24 hours a day. Therefore, the officer

60a
failed to satisfy the reasonable suspicion standard
because the information available to him did no more
than support an “inarticulate hunch or intuition.”7
See Derichsweiler, 348 S.W.3d at 917; see also
Shaffer v. State, 562 S.W.2d 853, 854-55 (Tex. Crim. App.
[Panel Op.] 1978) (reversing denial of motion to suppress
based on a traffic stop at 3:00 a.m. where all businesses
were closed, there was no traffic, and there were no
pedestrians because the arresting officer “had suspicion
but not an articulable fact”); Fatemi v. State, 558 S.W.2d
463, 466 (Tex. Crim. App. 1977) (“At the time Officer
Villegas approached appellant’s car, he knew the
following: appellant’s car had been parked, with the
parking lights on, partially off the side of the road
adjacent to a park and across the street from houses and
apartments; after Villegas circled the block, the car had
been moved; the car was seen a few moments later in the
same general vicinity. There is nothing in the record to
indicate appellant had committed any traffic violation,
that the area in question was a high crime area, or that
there was anything unusual about the car’s description.
The record does not show Officer Villegas had specific and
articulable facts such as to justify the temporary
detention of appellant’s automobile.”); Scott, 549 S.W.2d
at 172-73 (reversing denial of a motion to suppress where
arresting officer saw no traffic violation at 1:30 a.m.,
received no relevant police dispatch, knew there were
thefts in the area, and believed the area was “high
crime”); Faulkner v. State, 549 S.W.2d 1, 2 (Tex. Crim.
App. 1976) (“The inarticulate hunch, suspicion, or good
faith of the officer in suspecting the car to be stolen was
insufficient to constitute probable cause for an arrest, or
even a temporary detention.”); Hernandez v. State, 376
S.W.3d 863, 870 (Tex. App.—Fort Worth 2012, no pet.)
(reversing the denial of a motion to suppress where
arresting officer found appellant in a poorly lit and empty

7

61a
B. The park-and-ride was not a high
crime area.
The trial court also erred when it concluded
that three to four service calls over the course of
strip mall parking lot “sometime after 2:00 a.m. . . . with
its headlights on, left turn signal flashing, and driver’s
side door open”; “curiosity or ‘wondering about maybe a
possible break-in’ amount[ed] to nothing more than an
inchoate and general suspicion or hunch”) (citing Terry v.
Ohio, 392 U.S. 1, 21 (1968) and Woods v. State, 956
S.W.2d 33, 35 (Tex. Crim. App. 1997)); and Jones v. State,
926 S.W.2d 386, 389 (Tex. App.—Fort Worth 1996, pet.
ref’d) (reversing denial of a motion to suppress where
officer stopped appellant because he drove out from
behind a clump of trees in an unlit public park without a
curfew at 10:25 p.m.); but see Smith v. State, 813 S.W.2d
599, 602 (Tex. App.—Houston [14th Dist.] 1991, pet. ref’d)
(“Here, appellant was observed sitting in an automobile
parked on a dark and isolated road. The encounter
occurred in the early morning hours in a high crime area
known for the recovery of numerous stolen vehicles, many
of which were of the same make and model as the one
observed. The automobile’s engine and lights were turned
off. A second individual was doing something under the
hood. Under the hood the officers observed the presence of
two batteries and an unusual array of non-factory wiring.
Based upon these facts, the officers were suspicious that
the appellant and his companion were stripping a stolen
vehicle. Because we find these specific articulable facts
sufficient to constitute reasonable suspicion, we hold that
the investigative stop of appellant was justified.”). Cf.
Hinson v. State, 547 S.W.2d 277, 279 (Tex. Crim. App.
1977) (“Although there had been thefts committed at the
airport, there was not even a hint of suspicion that the
appellant was involved in these activities.”).

62a
several months to a business that is open 24 hours a
day constitutes a “high crime area” capable of
contributing to the reasonable suspicion calculus
based on presence therein alone. The United States
Supreme Court has held that whether a stop occurs
in a “high crime area” is “among the relevant
contextual considerations in a Terry analysis.”
Illinois v. Wardlow, 528 U.S. 119, 124 (2000) (citing
Adams v. Williams, 407 U.S. 143, 144, 147-48
(1972)). However, the protections afforded by the
United States and Texas Constitutions are not
abrogated simply because an officer subjectively
believes an area is properly designated as “high
crime”. See Gurrola v. State, 877 S.W.2d 300, 303
(Tex. Crim. App. 1994) (en banc) (high-crime
reputation of the area where the detainees were seen
cannot serve as the basis for an investigative stop)
(citing Amorella v. State, 554 S.W.2d 700, 701 (Tex.
Crim. App. 1977)); see also Malik v. State, No. 14-9201293-CR, 1996 WL 65639, at *3 (Tex. App.—
Houston [14th Dist.] Feb. 15, 1996) (mem. op., not
designated for publication) (“As a matter of law, the
mere description of an area as a high crime area is
insufficient to support a reasonable and articulable
suspicion to justify an investigatory stop.”) (citing
Comer v. State, 754 S.W.2d 656, 658 (Tex. Crim. App.
1986) and Benton v. State, 576 S.W.2d 374, 377 (Tex.
Crim. App. [Panel Op.] 1978)), vacated on other
grounds, 953 S.W.2d 234 (Tex. Crim. App. 1997).
Here, the trial court made written findings of
fact that the area in question was a “high crime area”
and we are obliged to uphold this finding if it is
supported by the record. Baird v. State, 398 S.W.3d
220, 226 (Tex. Crim. App. 2013). Here, the record

63a
contains no evidence which supports a finding that
the park-and-ride was a “high crime area”; we should
therefore hold the trial court’s finding was erroneous.
Specifically, the trial court heard evidence that
Officer Cox had patrolled the area for about ten years
and had made three to four service calls to that area
over the course of several months. First, there is no
evidence that anyone committed a crime during those
service calls; instead, the reasonable inference is only
that someone called the police for some unidentified
form of assistance. Second, there is no evidence
anyone was arrested during those service calls.
Third, if it was a high crime area, Officer Cox’s ten
years patrolling it should have yielded additional
testimony establishing that fact. Fourth, three to
four service calls over the course of several months to
an establishment that is perpetually open does not
constitute a “high crime area”; concluding otherwise
would obliterate the significance of the Supreme
Court’s test, effectively convert every neighborhood
in every sizable Texas city to a high crime area, and
undermine the reasonableness component of Fourth
Amendment jurisprudence. See Klare, 76 S.W.3d at
75 (“reasonable suspicion cannot be based solely on
[the officer’s] knowledge that burglaries have
previously occurred at that locale.”) (citing Brown v.
Texas, 443 U.S. 47 (1979) (reversing a conviction
when officers stopped and searched the defendants
only after viewing them in an area notorious for drug
trafficking, and the officers were unable to articulate
any basis for their conclusion that the defendants
“looked suspicious”)).
The Court of Criminal Appeals’ holding in
Ceniceros v. State is instructive in this regard. 551

64a
S.W.2d 50, 55 (Tex. Crim. App. 1977). There, the
arresting officer saw four men standing on a
sidewalk in an area that had “a number of recent
burglaries”; the court reversed the denial of
defendant’s motion to suppress and carefully
explained its reasoning.
The only facts the officer had at the
initiation of his investigation were (1)
a number of recent burglaries in the
area and (2) four men standing
together on a sidewalk at an
intersection at 10:20 in the morning . .
. . If such a suspicion were a
reasonable inference from standing on
a street corner in this neighborhood,
all citizens passing through victimized
neighborhoods would be suspects, and
pedestrian checkpoints could be set up
to monitor their comings and goings.
Practices of this kind are repugnant to
a free society. If victimization by crime
becomes
the
justification
for
indiscriminate intrusion by the state,
then we forfeit the security of our
persons and privacy from invasion by
the police on a hope of future security
from the criminal, and ultimately find
ourselves the displaced refugees in a
raging war on crime.
Without more, two people parked in a place where
they had the right to be cannot give rise to
constitutionally sufficient suspicion, particularly
where there is no competent evidence that the area

65a
in question is “high crime”. Compare Benton, 576
S.W.2d at 374 (reversing the denial of a motion to
suppress when officer conducted a traffic stop at 4:45
a.m. in an area that had “perhaps three recent
burglaries in that area” that had “‘usually’ taken
place between three and five in the morning”) with
Thompson v. State, 533 S.W.2d 825, 826 (Tex. Crim.
App. 1976) (characterizing an area as “high crime”
where “many prowlers had been recently reported.”)
and Burton v. State, No. 14-08-00445-CR, 2009 WL
838271, at *1 (Tex. App.—Houston [14th Dist.] 2009,
pet. ref’d) (mem. op., not designated for publication)
(characterizing an area as “high crime” where (1)
“[m]any of the motels in the area. . . experienced ‘a
lot of prostitution . . . stolen vehicles . . . [and] drug
activity’”, (2) the motel in question “had been the
scene of multiple arrests”; and (3) the arresting
officers had purportedly “made between fifty and
one-hundred arrests” at that hotel in the preceding
eight months). Cf. Garcia-Cantu, 253 S.W.3d at 239
(reversing appellate court’s reversal of a trial court’s
granting of a motion to suppress; although the officer
testified that it was a “high crime” area for drugs and
prostitution, “he did not dispute that there had been
only two drug arrests in the prior six months and no
prostitution arrests in that area.”).

III.

Conclusion

In contrast to the majority, I would conclude
that approaching a person with flashing overhead
emergency lights is synonymous with an instruction
to stop and not leave and thus constitutes a
detention rather than merely an encounter. The

66a
investigative detention in this case was unsupported
by reasonable suspicion and was therefore unlawful.
The Fourth Amendment requires more than
inarticulate suspicion or a hunch. The arresting
officer here relied upon the time of day and the area
where Appellant was located; that is not enough,
particularly where the facts do not support
reasonable suspicion based upon either circumstance
(or even the combination of both circumstances). See
Klare, 76 S.W.3d at 75 (“Although relevant to our
analysis, both time of day and the level of criminal
activity in the area are facts which focus on the
suspect’s surroundings rather than on the suspect
himself. Consequently, courts generally require an
additional fact or facts particular to the suspect’s
behavior to justify a suspicion of criminal activity.”)
(citing United States v. Cortez, 449 U.S. 411, 418
(1981)). Therefore, I concur.
/s/ Meagan Hassan
Meagan Hassan
Justice
Panel consists of Chief Justice Frost and Justices
Wise and Hassan (Hassan, J., concurring).
Publish — Tex. R. App. P. 47.2(b).

67a
APPENDIX C
[Conducted June 15, 2017]
Motion to Suppress
Hearing Transcript
[Excerpts]
…
Page 4
THE COURT: The Court now calls Case No.
224018, styled The State of Texas versus Jacob
Matthew Johnson. In this case Mr. Johnson is
charged with a Class B Misdemeanor, possession
of marijuana.
The matter before the court today is the motion to
suppress filed by the defendant on May 12th, 2017.
Let the record reflect that Jacob Johnson, the
defendant, is present in the courtroom together
with his attorney, Dominic Merino…
…
Page 10
THE COURT: All right. So it’s stipulated that it
was a warrantless arrest.
MR. MERINO: Yes.
MR. ROGERS: Yes.
THE COURT: And it ends right there.

68a
…

Page 12

SERGEANT ROBERT COX, having been first duly
sworn, testified as follows:
DIRECT EXAMINATION BY MR. ROGERS
…
Page 13
Q. …on August 28th of 2016, were you working that
night?
A. Yes, sir.
Q. And around midnight did you notice anything
out of the ordinary?
A. No.
A. Yes, sir.
Q. And what was that?
A. A suspicious vehicle in a park-and-ride, FM
2004 and F 523.
Q. Okay. And that park-and-ride –

69a
MR. MERINO:
I’m going to object as to
characterization. He’s assuming facts not in
evidence. He’s labeling this vehicle as
suspicious with no supporting facts at all. It’s
at the park-and-ride and all of the sudden it’s
suspicious.
THE COURT. Well, that’s his opinion; but that
doesn’t necessarily make it suspicious. They’ve
got to prove to me it was suspicious.
MR. MERINO: No. I understand.
THE COURT: Okay.
MR. MERINO: It’s a statement of opinion and
not fact, though.
THE COURT: It’s – it’s his opinion.
Q. (By Mr. Rogers) And is that within the area that
you normally patrol?
A. Yes, sir.
…
Page 15
Q. Okay. And how often have you patrolled that
area?

70a
A. Regular basis. Every night I’m on.
Q. Okay. And for about how many years?
A. I worked the north end of the country for almost
eight years as a patrol deputy. Then I was a – in a
specialized unit for almost nine years after that.
And I was county-wide then. So, it started – at
least ten years.
…
Page 16-17
Q. (By Mr. Rogers) Okay. Are you familiar with
that particular park-and-ride?
A. Yes, sir.
Q. And why are you familiar with that particular
park-and-ride?
A. We have a variety of criminal activity in that
park-and-ride.
Q. And what type of criminal activity?

71a
A. Burglaries of motor vehicles, public lewdness,
illicit drugs.
Q. Okay. Have you responded to calls to that parkand-ride before?
A. Yes, sir.
Q. On few or many occasions?
A. Several occasions.
THE COURT: Well, is several one more than
few or one less than many? I mean several
could be three.
THE WITNESS: In ten years, I couldn’t tell
you how many times I’ve been out there.
THE COURT: A lot or a little?
THE WITNESS: A lot.
THE COURT: A lot. Okay.
Q. (By Mr. Rogers) Could you be any more specific
than a lot or is it just a lot?
MR. MERINO: I’m going to object as to asked
and answered at this point. I don’t think he
knows.

72a
A. Without pulling up our call history on it, in ten
years -Q. (By Mr. Rogers) Okay.
A. I answer many calls a day.
…

Page 17
Q. (By Mr. Rogers) In – in the months around
August 28th of 2016, how many times did you go
out to that particular park-and-ride?
A. Me personally go out to that park-and-ride for
calls of service or –
Q. For calls of service.
A. For calls of service, me, personally, finding –
maybe three or four.
…
Page 18
Q. (By Mr. Rogers) – what did you observe in that
park-and-ride that particular evening?

73a
A. As I come to the park-and-ride, I usually make
passes through there to check vehicles. Any time I
see a vehicle in there, I’ll come through and
spotlight the vehicles. I observed a vehicle sitting
off to its side. As I shined my spotlight across the
parking lot, across the vehicle, I could tell that it
was occupied, two times, with movement in the
vehicle and there was no lights on in the vehicle
and no other vehicles around it.
Q. Okay. And was that vehicle on or off?
A. I do not recall.
Q. Okay.
A. There was no headlights or any lights on it.
Q. Were there other vehicles in the park-and-ride
at that particular time?
A. Yes, sir.
Q. Okay. And when you approached that vehicle,
what did you do?
A. Made contact on the driver’s side of the vehicle
using caution and identified myself.

74a
…

Page 20
THE COURT: … So, Officer Cox, you get to
the park-and-ride, you see a vehicle with no
lights on but you can tell there’s people in the
car.
THE WITNESS: Yes, ma’am.
THE

COURT:

What

did

you

do

next?

THE WITNESS: I activated my overhead
lights which activates – due to the fact it
activates our in-car audio and video system –
THE COURT: Okay.
THE WITNESS: -- for my safety
THE COURT: And –
THE WITNESS: It also makes somebody
aware that it’s the police officer that’s there,
it’s not a stranger gonna roll up, and so nobody
shoots me.
THE COURT: Okay. So for my benefit, when
you say you activated your overhead lights,
how far were you from the vehicle that the
defendant was sitting in?
THE WITNESS: 15 yards. Between 10 and 15
yards.

75a
…
Page 21 – 22
Q. … And – as soon as you that – as soon as you
made contact with the defendant, did you notice
anything out of the ordinary?
A. I noticed two things out of the ordinary.
Q. And what were those?
A. One, when the window come down, I noted an
order of what my law enforcement career’s taught
me to believe was the odor of marijuana and two, I
noted the – the defendants had on baggy shorts and
his shorts were unbuttoned and unzipped.
Q. Okay. And at that point did you believe that you
had reasonable suspicion for a detention?
A. Yes, sir.
Q. Okay. All right. And at that point, if the window
had come down and there was no odor of marijuana
and no shorts undone, would you have released the
defendant?
A. I would have identified them and released them.
…

76a
Pages 23 – 25
CROSS-EXAMINATION
BY MR. MERINO
Q. Sergeant, on the evening in question, you were
in a marked unit. Correct?
A. Yes, sir.
Q. And you had – you know, so if you turned on
your overhead lights, it would be like a normal
police car pulling somebody over if you got a traffic
ticket. Right? I mean, that’s what your vehicle
looked like?
A. Yes, sir.
Q. … So, it was about – a little after midnight
when you saw Mr. Johnson sitting in the car.
Right?
A. Yes, sir.
Q. And at that point in time, you had seen a silver
colored 4-door Pontiac Vibe, correct, parked in this
state park-and ride and then you give the license
plate -A. Yes, sir.
Q. Okay. And did you run the plate on the Pontiac
Vibe.

77a
A. Not at that point in time.
Q. Okay.
A. Not initially.
Q. And then you saw that it was occupied by two
unknown people. Correct?
A. Correct.
Q. Uh-huh. And you say it was parked with no
lights on facing north just like you draw on your
diagram Correct?
A. Correct.
Q. Okay. And your testimony’s been that you’ve –
you’ve had to make some calls for service out there
for different type of crime – criminal activity.
Correct?
A. Yes, sir.
Q. Okay. And based on that knowledge, you turned
on your overhead lights and drove towards the
vehicle, correct, the Vibe, the Pontiac Vibe in
question?
A. No sir.
Q. You did not?

78a
A. I was coming through the middle of the – of the
park-and-ride with my spotlight prior scanning the
vehicles that were in the parking lot for activity.
Q. Okay. Gotcha. And you conducted a suspicious
vehicle check activating my overhead emergency
lights which activities my patrol unit’s audio video
equipment. Correct?
A. Yes, sir.
…
Page 26-27
REDIRECT EXAMINATION
BY MR. ROGERS:
Q. And Sergeant Cox, you just testified that it was
just after midnight when you – when you in fact
encountered the defendant. What are the typical
hours of use for that park-and-ride?
A. … It’s a 24-hours park-and-ride. The main use
is during the daytime for people that go into plant
traffic and park. But it is 24 hours open. So, we
have it – people use it. There’s a bar down the
road. There’s people – they don’t have a big
parking spot there. There’s people that will park
there and commute over to the bar.
Q. (By Mr. Rogers) And you testified that you were
– you were very familiar with this park-and-ride
earlier; is that right?

79a
A. Yes, sir.
Q. Okay. Is it out of the ordinary for somebody to
be parked in a car, still in their car after midnight
in that park-and-ride?
A. With no other vehicle there to pick them up and
give them a ride, yes.
…
Page 30
THE COURT: … what I have to decide was did
he have reasonable suspicion based on the
history of this park-and-ride to do what he did.
…
Page 40-41
THE COURT: No, but his – I – I remember
what his testimony was about this was an area
where it was not unusual for there to have
been crime in this particular park-and-ride.
MR. MERINO: Yes. Calls for service, yes.
THE COURT: Okay.
MR. ROGERS: … the police officer should not
have to turn a blind eye to somebody being in
a suspicious area where crimes had occurred

80a
at an odd time of night and have to just pass
him by and not be able to do anything about it,
which is what this case – which is the tone
that the Court of Criminal Appeals took in
that case.
…

Page 42
So, basically, Judge, to – to wrap up, in this
case the officer was simply stopping by a
vehicle that was parked in a suspicious
location to find out what was going on …
Sergeant Cox had reasonable suspicion in this
case because there were prior incidences of
burglaries, public lewdness, and drug use in
this park-and-ride and we believe that the
case law shows that people that are parked in
high crimes areas at odd times of night, that –
those facts alone would provide reasonable
suspicion for an investigative detention and I
don’t believe that there’s any argument that
he definitely had reasonable suspicion as soon
as that window went down.

…
Page 44-45
MR. MERINO: Here there’s been no criminal
activity supported. He’s coming in there. He’s
doing a sweep and he sees two people sitting
in a car. That’s all he said – that’s all he

81a
knows. There’s not a single specific articulable
facts that he pointed to other than it’s a high
crime area – if you can call it a specific
articulable fact – but certainly nothing
pertaining to these two people doing anything
illegal. If that State’s argument is true, then
anybody in this park-and-ride can be seized by
a police officer and there’s reasonable
suspicion to do it. Just because they’re
present.

